No. 20-1605
INTHE

~upreme QCourt of tbe fflniteb ~tates
JUSTIN TERRELL ATKINS

Petitioner,
V.

TIMOTHY HOOPER, WARDEN

Elayn Hunt Correctional Center
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Fifth
Circuit
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Christine M. Calogero
Counsel of Record
Viviana Aldous
BARRASSO USDIN KUPPERMAN
FREEMAN & SARVER, L.L.C.

909 Poydras Street, Suite 2350
New Orleans, Louisiana 70112
Telephone: (504) 589-9700
ccalogero@barrassousdin.com
valdous@barrassousdin.com

Counsel for Petitioner

MOTION FOR LEAVE TO PROCEED

IN FORMA PAUPERIS
The petitioner asks leave to proceed in forma paupens.
Please check the appropriate boxes:
./

Petitioner has previously been granted leave
to proceed in forma pauperis in the following
court(s):
United States District Court for the Western
District of Louisiana, Case No. 17-CV-1544

o

Petitioner has not previously been granted
leave to proceed in forma pauperis in any
other court.

o

Petitioner's affidavit or declaration in support
of this motion is attached hereto.
Petitioner's affidavit or declaration is not attached because the court below appointed
counsel in the current proceeding, and: The
appointment was made under the following
provision of law:
or

./

A copy of the order of appointment is appended.

2

Respectfully submitted,
Christine M. Calogero
Counsel of Record
Viviana Aldous
Barrasso Usdin Kupperman
Freeman&Sarver, L.L.C.
909 Poydras Street, Suite
2350
New Orleans, Louisiana
70112
Telephone: (504) 589-9700
ccalogero@barrassousdin.com
valdous@barrassousdin.com
Counsel for Petitioner

Case: 19-30018

Document: 00515082879

Page: 1

Date Filed: 08/20/2019

United States Court ofAppeals
FIFfH CIRCUIT
OFFICE OF THE CLERK

TEL 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

August 20, 2019
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-30018

Justin Atkins v. Timothy Hooper, Warden
USDC No. 3:17-CV-1544

Enclosed is an order entered in this case.
A briefing notice will issue under separate cover.

Sincerely,
LYLE W. CAYCE, Clerk

~de
.
1;y
By:
Allison G. Lopez, Deputy Clerk
504-310-7702

Mr.
Mr.
Ms.
Mr.

Robert Anderson
Justin Terrell Atkins
Christine Marie Calogero
Tony R. Moore

Case: 19-30018

Document: 00515082874

Page: 1

Date Filed: 08/20/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19~30018
JUSTIN TERRELL ATKINS,
Petitioner - Appellant
V.

TIMOTHY HOOPER, Warden, Elayn Hunt Correctional Center,
Respondent - Appellee
Appeal from the United States District Court
for the Western District of Louisiana

ORDER:
IT IS ORDERED that attorney Ch1'istine Calogero, a member in good
standing· of the bar of this court, is appointed as PRO BONO counsel for the appellant
for purposes of the proceedings in this court. The clerk is DIRECTED to establish
briefing schedu}e.

J. COSTA
S CIRCUIT JUDGE

